Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 AVAILABILITY OF MEDICARE 

     PART D DRUGS TO 

DUAL-ELIGIBLE NURSING HOME 

        RESIDENTS 





                    Daniel R. Levinson

                     Inspector General 


                       June 2008 

                     OEI-02-06-00190

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ       E X E C U T I V E                                   S U M M A R Y


                  OBJECTIVE
                  To assess the availability of Medicare Part D drugs to dual-eligible
                  nursing home residents.


                   BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA) established the Medicare Prescription Drug Program,
                  known as Medicare Part D. The Centers for Medicare & Medicaid
                  Services (CMS) contracts with private health insurance companies that
                  sponsor Part D plans. Each Part D plan develops its own list of covered
                  drugs, known as a formulary, and may also use utilization management
                  tools, such as prior authorization, to control drug costs and dosages.
                  Nursing homes typically have contracts with long-term care pharmacies
                  to ensure safety and convenient access to drugs for residents. Under
                  Part D, CMS requires that each plan offer a contract to any long-term
                  care pharmacy that is willing to participate in its network.
                  Dual-eligible beneficiaries are eligible to receive both Medicare and
                  Medicaid coverage. Prior to Medicare Part D, Medicaid paid for most of
                  the prescription drugs for dual-eligible nursing home residents. Under
                  Part D, these residents now receive drug coverage through Medicare, and
                  are eligible to have their premiums, deductibles, and copayments fully
                  subsidized.

                  This study focuses on ongoing implementation issues, as opposed to the
                  issues related to the transition from Medicaid to Medicare that arose in
                  the early stages of the benefit. It is based on structured interviews with a
                  sample of nursing home administrators, medical directors, and directors of
                  operations for long-term care pharmacies (referred to as pharmacy
                  directors) conducted between September 2006 and March 2007.
                  Estimates derived from administrators’ responses are projected to the
                  population of administrators of nursing homes with dual-eligible residents.
                  However, estimates derived from medical directors’ and pharmacy
                  directors’ responses are limited to the sample respondents due to a low
                  response rate and low usable sample size, respectively.




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   i
 E X E C U T I V E                               S U          M M A R Y 




                        FINDINGS
                        Most respondents reported that dual-eligible nursing home
                        residents are receiving all necessary Part D drugs. Ninety-three
                        percent of nursing home administrators reported that dual-eligible
                        residents in their nursing homes are receiving all necessary Part D drugs.
                        About 4 percent of administrators reported that at least one dual-eligible
                        resident in each of their nursing homes is not receiving needed drugs
                        from their Part D plans or any other sources. They explained that some
                        of these residents changed their Part D plans or were transferred to
                        hospitals to receive the drugs they needed; others went without the drugs
                        entirely. The majority of medical directors and pharmacy directors whom
                        we interviewed also reported that dual-eligible nursing home residents
                        are receiving all necessary Part D drugs.
                        Nursing homes and long-term care pharmacies sometimes pay for
                        Part D drugs that are not covered by plans. Forty-five percent of
                        administrators reported that their nursing homes paid for at least one
                        Part D drug for dual-eligible residents. As several administrators
                        explained, nursing homes may pay for these Part D drugs to comply
                        with Federal regulations and Conditions of Participation that require
                        nursing homes to ensure that residents receive needed drugs in a timely
                        manner. Additionally, 77 percent (61 of 79) of the pharmacy directors
                        whom we interviewed reported that their pharmacies paid for at least
                        one Part D drug for dual-eligible residents in the sampled nursing
                        homes. Administrators and pharmacy directors explained that the
                        drugs they most commonly pay for either are not on the residents’ plans’
                        formularies or require prior authorization. Several pharmacy directors
                        explained that not all plans cover the cost of a short-term supply of
                        drugs during the prior authorization process.
                        Respondents express concerns that formularies, the prior
                        authorization process, and copayments may pose problems for
                        dual-eligible nursing home residents. About one-fifth of nursing home
                        administrators and a similar proportion of the medical directors and
                        pharmacy directors whom we interviewed are concerned that plan
                        formularies may not meet all of the needs of some dual-eligible nursing
                        home residents. For instance, several medical directors noted that the
                        therapeutically equivalent drugs on the formulary are not always
                        appropriate for residents because they may cause adverse side effects or
                        may not be in the proper form. Additionally, about one-fifth of
                        administrators and a similar proportion of the medical directors and


OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   ii
 E X E C U T I V E                               S U          M M A R Y


                        pharmacy directors expressed concerns that the prior authorization
                        process can be burdensome. The majority of pharmacy directors also
                        reported that some dual-eligible residents are being incorrectly
                        identified as required to pay copayments.
                        Concerns also exist that long-term care pharmacies generally do not
                        disclose to physicians the rebates that they receive from drug
                        manufacturers. According to our interviews, long-term care pharmacies
                        have continued to receive rebates from drug manufacturers under Part D
                        and they generally do not disclose these rebates to physicians. More than
                        half of the pharmacy directors whom we interviewed reported that their
                        pharmacies receive rebates from drug manufacturers, but only three of
                        these pharmacy directors reported that their pharmacies provide any
                        information to nursing homes or to physicians about the rebates that they
                        receive. Pharmacists employed by these long-term care pharmacies can
                        influence the drugs that are prescribed to residents in nursing homes both
                        when drugs are initially ordered and during monthly drug regimen
                        reviews. Taken together, these issues raise concerns that rebates may
                        create incentives for pharmacists and consultant pharmacists to
                        recommend certain drugs over others based on financial considerations as
                        opposed to clinical considerations and that physicians may not be aware of
                        these incentives when deciding whether to take pharmacists’
                        recommendations.


                        RECOMMENDATIONS
                        Based on these findings, we plan to do additional work on long-term
                        care pharmacy rebates. In addition, we recommend that CMS take the
                        following actions:
                        Work with plans to ensure that formularies meet the needs of
                        dual-eligible nursing home residents. During its formulary review
                        process, CMS should put additional emphasis on ensuring that plans
                        include the drugs and alternative dosages and forms that meet the
                        needs of dual-eligible nursing home residents.
                        Continue to work with plans to improve the prior authorization
                        process. CMS should clarify existing guidance to ensure that plans pay
                        for a supply of drugs for current enrollees during routine prior
                        authorization requests. Further, CMS should specify under what
                        circumstances a supply of drugs would qualify as being an emergency
                        supply. CMS should also work with plans to ensure that plan staff are



OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   iii
 E X E C U T I V E                               S U          M M A R Y


                        responsive and knowledgeable about Part D formulary and coverage issues
                        that are specific to dual-eligible nursing home residents.
                        Ensure that copayments for dual-eligible nursing home residents
                        are fully subsidized, as appropriate. CMS should continue its efforts
                        to ensure that residents are properly identified as dually eligible and as
                        residing in nursing homes. CMS should also work with plans to ensure
                        they are using “best available data” when they have knowledge that a
                        beneficiary is being inappropriately charged copayments. CMS should
                        also consider educating long-term care pharmacies and nursing homes
                        about what “best available data” they can provide to plans.
                        Consider methods to encourage long-term care pharmacies to
                        disclose to physicians information about rebates that they receive
                        from drug manufacturers. We recognize that CMS does not have the
                        authority under Part D to require long-term care pharmacies to disclose
                        the rebates that they receive from drug manufacturers. However, CMS
                        can consider methods to encourage long-term care pharmacies to
                        disclose to physicians information about their rebates. Because
                        long-term care pharmacists can influence the drugs that are prescribed
                        to residents in nursing homes, it is important that physicians be aware
                        of any potential financial incentives that pharmacists may have to
                        recommend one drug over another.


                        AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                        RESPONSE
                        CMS concurred with two of our recommendations and the intent of the
                        third recommendation; it did not concur with our last recommendation.
                        CMS stated that it will work with plans to ensure that formularies meet
                        the needs of dual-eligible nursing home residents and continue to work
                        with plans to improve the prior authorization process. CMS concurred
                        with the intent of our third recommendation to ensure that copayments
                        for dual-eligible residents are fully subsidized, as appropriate. CMS did
                        not concur with our fourth recommendation to consider methods to
                        encourage long-term care pharmacies to disclose to physicians
                        information about rebates that they receive from drug manufacturers.
                        CMS stated that it does not have authority under Part D to require
                        long-term care pharmacies to disclose their rebates to physicians. We
                        recognize that CMS does not have the authority to require pharmacies
                        to disclose rebate information to physicians. However, we continue to
                        recommend that CMS consider additional ways to encourage
                        pharmacies to disclose this information to physicians so that they are

OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   iv
 E X E C U T I V E                               S U          M M A R Y


                        aware of any potential financial incentives that pharmacists may have
                        to recommend one drug over another.




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   v
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9

                   Dual-eligible residents are receiving necessary Part D drugs. . . . . 9 


                   Nursing homes and pharmacies sometimes pay for drugs . . . . . . 10 


                   Concerns exist that formularies, the prior authorization process, 

                   and copayments may pose problems . . . . . . . . . . . . . . . . . . . . . . . 11 


                   Concerns also exist that long-term pharmacies generally do not 

                   disclose to physicians the rebates that they receive from drug 

                   manufacturers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   Agency Comments and Office of Inspector General Response . . . 17 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                   A: Confidence Intervals for Selected Estimates . . . . . . . . . . . . . . 20 


                   B: Common Process for Obtaining Drugs . . . . . . . . . . . . . . . . . . . 21 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

Δ      I N T R O D U C T I O N



                        OBJECTIVE
                        To assess the availability of Medicare Part D drugs to dual-eligible
                        nursing home residents.


                        BACKGROUND
                        The Medicare Prescription Drug, Improvement, and Modernization
                        Act of 2003 (MMA) established the Medicare Prescription Drug
                        Program, known as Medicare Part D.1 The Part D benefit provides
                        prescription drug coverage for Medicare beneficiaries, including
                        dual-eligible beneficiaries who are eligible to receive both Medicare
                        and Medicaid coverage. Approximately one in four dual-eligible
                        beneficiaries resides in a long-term care facility such as a nursing
                        home.2 This benefit is particularly important for nursing home
                        residents, who frequently have multiple chronic diseases and take an
                        average of 8 to 10 medications a day.3
                        The implementation of Part D significantly changed prescription
                        drug coverage for dual-eligible nursing home residents. Prior to
                        Medicare Part D, Medicaid paid for most of the prescription drugs for
                        dual-eligible nursing home residents. Under Part D, these residents
                        now receive drug coverage through Medicare and must enroll in
                        private Part D prescription drug plans.

                        This study focuses on ongoing implementation issues, as opposed
                        to the issues related to the transition from Medicaid to Medicare
                        that arose in the early stages of the benefit. It provides
                        information on the extent to which dual-eligible residents are
                        receiving needed drugs under Part D and identifies issues specific
                        to this population.
                        The Medicare Prescription Drug Benefit
                        The Centers for Medicare & Medicaid Services (CMS) contracts
                        with private health insurance companies, known as sponsors, to

                            1 MMA, P.L. No. 108-173, title I, § 101 et seq. (codified at 

                            42 U.S.C. § 1395w-101 et seq. and 42 U.S.C. § 1396u-5). 

                            2 Government Accountability Office, “Medicare Part D Challenges in Enrolling 

                            New Dual-Eligible Beneficiaries,” May 2007, p. 11. 

                            3 The Lewin Group, “CMS Review of Current Standards of Practice for Long-Term

                            Care Pharmacy Services: Long-Term Care Pharmacy Primer,” 

                            December 30, 2004, p. 1. 





OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   1
I N T R O D       U C T                   I O N

                        provide the Medicare Part D benefit. These sponsors may offer a
                        stand-alone prescription drug plan (PDP) or they can offer
                        prescription drug coverage as a part of a managed care plan
                        known as a Medicare Advantage Prescription Drug Plan (MA-PD).
                        Throughout this report, we will refer to PDPs and MA-PDs as
                        Part D plans.

                        On January 1, 2006, dual-eligible nursing home residents were
                        automatically enrolled in randomly assigned eligible Part D plans
                        if they had not already selected one.4 Unlike other Medicare
                        beneficiaries, dual-eligible beneficiaries may change their plans at
                        any time.5 Further, dual-eligible nursing home residents are
                        eligible to have any premiums, deductibles, or copayments fully
                        subsidized for prescription drugs covered under Medicare Part D.6
                        Formularies and Utilization Management Tools
                        Each Part D plan develops its own list of covered drugs, known as
                        a formulary, which must meet certain standards. Each plan’s
                        formulary must contain at least two drugs within each therapeutic
                        category and pharmacologic class.7 It must also cover “all or
                        substantially all” of the drugs in six categories:
                        immunosuppressant, antidepressant, antipsychotic,
                        anticonvulsant, antiretroviral, and antineoplastic classes.8 CMS
                        reviews each plan’s formulary to ensure that it provides access to
                        appropriate treatments for all diseases and is not designed to
                        discourage enrollment by any particular group.

                        Certain classes of drugs are excluded from coverage by Part D.
                        These include benzodiazepines, barbiturates, weight management
                        drugs, and over-the-counter drugs.9 Furthermore, Part D
                        generally excludes from coverage any drug that is covered under
                        Part A or Part B.10 Several factors must be considered to
                        determine whether a drug is covered under Part A, B, or D, such
                        as setting, characteristics of the patient, medical use of the drug


                            4 42 U.S.C. § 1395w-101(b)(1)(C); see also 42 CFR § 423.34. 

                            5 42 CFR § 423.38(c)(4). 

                            6 42 U.S.C § 1395w-114; see also 42 CFR §§ 423.780 and 423.782.

                            7 42 CFR § 423.120(b)(2)(i). 

                            8 CMS, “Prescription Drug Benefit Manual,” Chapter 6—Part D Drugs and 

                            Formulary Requirements, § 30.2.5.
                             9 42 U.S.C. § 1395w-102(e)(2)(A) and 42 U.S.C. § 1396r-8(d).
                            10 42 U.S.C. § 1395w-102(e)(2)(B).




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   2
I N T R O D        U C T            I O N


                          and its form, and the method of administration.11 CMS issued
                          guidance in its Prescription Drug Benefit Manual which details
                          the circumstances under which Parts A, B, and D cover drugs.

                          Plans may use utilization management tools to control drug costs
                          and dosages.12 These tools include prior authorization, step
                          therapy, or quantity limitations. As is generally known, prior
                          authorization requires a beneficiary to seek prior approval from
                          the plan to receive a drug on the formulary. Step therapy requires
                          the beneficiary to try a less-expensive alternative drug before the
                          plan will cover a specific drug. Quantity limitations restrict the
                          amount of the drug that can be prescribed or the number of refills
                          per prescription.

                          Plans must have an exceptions process whereby beneficiaries may
                          request that the plan cover a drug that is not on the formulary.13
                          Additionally, beneficiaries may appeal adverse coverage
                          determinations through an appeals process.14 In 2006, CMS
                          collaborated with the American Medical Association and America’s
                          Health Insurance Plans to develop a standardized form for the
                          exceptions and prior authorization processes. Although plans are
                          allowed to have their own forms, they are required to accept this
                          form.15
                          In addition, CMS provided guidance to plans about covering
                          nonformulary drugs under certain circumstances. For 2006, CMS
                          required plans to have a transition policy and recommended that
                          they provide nursing home residents who are new enrollees with
                          temporary supplies of nonformulary drugs for 90 to 180 days.
                          CMS also encouraged plans to cover one-time supplies of drugs for
                          current enrollees during the exceptions process and for


                              11 CMS, “Prescription Drug Benefit Manual,” Chapter 6—Part D Drugs and 

                              Formulary Requirements, Appendix C-1 and C-2. Available online at: 

                              http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBMChap6For

                              mularyReqrmts_03.09.07.pdf. Accessed on November 7, 2007. 

                              12 42 CFR § 423.153. 

                              13 42 CFR § 423.578. 

                              14 42 U.S.C. § 1395w-104(h). 

                              15 CMS, “Frequently Asked Questions: Coverage Determination Request Forms, 

                              Physician Supporting Statements & Processing Timeframes for Exceptions and

                              Prior Authorizations.” Available online at 

                              http://www.rxassist.org/providers/documents/CMSAppealsExceptionsFAQs_000.pdf.

                              Accessed on October 31, 2007. 





 OEI-02-06-00190    AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   3
I N T R O D       U C T                   I O N


                        beneficiaries who were transitioning into new care settings, such
                        as nursing homes.16 For 2007, CMS required plans to cover a
                        90-day supply of nonformulary drugs and drugs requiring prior
                        authorization or step therapy for new enrollees who are nursing
                        home residents.17 Further, CMS required plans to provide up to a
                        31-day emergency supply of nonformulary Part D drugs and drugs
                        requiring prior authorization or step therapy for current nursing
                        home residents while an exception is being processed.
                        Long-Term Care Pharmacies
                        Nursing homes typically have contracts with long-term care
                        pharmacies to ensure safety and convenient access to drugs for
                        residents.18 Given the resident population’s needs, these
                        pharmacies provide specialized services, such as a comprehensive
                        inventory of drugs commonly used in long-term care settings,
                        specialized packaging, intravenous therapy medications,
                        7-day-a-week delivery, pharmacy on-call services, and emergency
                        medications.19 Under Part D, CMS requires that each plan offer a
                        contract to any long-term care pharmacy that is willing to
                        participate in its network and is capable of meeting minimum
                        performance and service criteria.20
                        Long-term care pharmacies have historically received rebates from
                        drug manufacturers. According to CMS, these rebates are
                        intended to “prefer, protect, or maintain that manufacturer’s
                        product selection by the pharmacy or to increase the volume of




                            16 CMS, “Information for Part D Sponsors on Requirements for a Transition

                            Process, March 2005.” Available online at 

                            http://www.ascp.com/medicarerx/upload/transition_process.pdf. Accessed on 

                            October 31, 2007. 

                            17 CMS, “Transition Process Requirements for Part D Sponsors, April 2006.” 

                            Available online at 

                            http://www.ascp.com/medicarerx/upload/CY07TransitionGuidance.pdf. Accessed 

                            on October 12, 2007. 

                            18 70 Fed. Reg. 4194, 4250 (Jan. 28, 2005). 

                            19 CMS, “Long-Term Care Guidance, March 16, 2005.” Available online at 

                            http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/LTCGuidance.pdf. 

                            Accessed on July 31, 2007. 

                            20 70 Fed. Reg. 4251; see also ibid. 





OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   4
I N T R O D        U C T            I O N

                          that manufacturer’s products that are dispensed by the pharmacy
                          under its formulary (referred to as ‘moving market share’).”21
                          Beginning in 2007, long-term care pharmacies are required to
                          report to the Part D plans with which they contract the rebates
                          that they receive.22
                          Federal Requirements for Nursing Homes
                          Federal law requires nursing homes to ensure that residents are
                          provided with all drugs needed to fulfill the residents’ plans of
                          care.23 Specifically, as a condition of participation in the Medicare
                          or Medicaid programs, nursing homes must provide or arrange for
                          the provision of “pharmaceutical services (including procedures
                          that assure the accurate acquiring, receiving, dispensing, and
                          administering of all drugs and biologicals) to meet the needs of
                          each resident.”24 If a nursing home enters into a contract with a
                          pharmacy to provide pharmaceuticals, the nursing home is
                          responsible for the quality and timeliness of pharmaceutical care
                          and services.25 CMS guidance also instructs nursing homes to
                          provide these drugs in a timely manner and as ordered by the
                          prescriber.26
                          Federal regulations also require nursing homes to arrange for a
                          pharmacist to review each resident’s drug regimen at least
                          monthly. 27 Most nursing homes contract with licensed
                          pharmacists, commonly known as consultant pharmacists, to
                          conduct these drug regimen reviews. Consultant pharmacists
                          must report any irregularities they find during these reviews to




                              21 CMS, “Medicare Part D Reporting Requirements, Contract Year 2007.”
                              Available online at
                              http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PartDReportin
                              gRequirements_CurrentYear.pdf. Accessed on October 5, 2007.
                              22 Ibid. 

                              23 A plan of care describes the medical, nursing, and psychosocial needs of the 

                              resident and how such needs will be met; see 42 U.S.C. § 1396r(b)(2)(A).

                              24 42 U.S.C. § 1396r (b)(4)(A)(iii); see also 42 CFR § 483.60.
                              25 42 CFR § 483.75(h).

                              26 Noncompliance can result in a citation during the routine survey process. 


                              42 CFR § 483.75(h); see also CMS, “State Operations Manual, Appendix PP–

                              Guidance to Surveyors for Long-Term Care Facilities,” Rev. 26, 8-17-07, pp. 430 

                              and 442. 

                              27 42 CFR § 483.60(c). 





 OEI-02-06-00190    AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   5
I N T R O D       U C T                   I O N


                        the attending physician and the director of nursing and these
                        reports must be acted upon.28
                        Related Work
                        The Medicare Payment Advisory Commission (MedPAC) recently
                        issued a report entitled “Medicare Part D, Nursing Homes, and
                        Long-Term Care Pharmacies.”29 The report found that many
                        stakeholders described Part D as a better fit for beneficiaries in
                        the community than for beneficiaries in institutions such as
                        nursing homes. Stakeholders noted that although formulary
                        coverage appears adequate for many medications used by nursing
                        home residents, they had concerns about obtaining certain drugs
                        and about utilization management tools being burdensome for
                        clinical and pharmacy staff.


                        METHODOLOGY
                        Scope
                        We based this study on our analysis of structured interviews with a
                        sample of nursing home administrators, medical directors, and
                        directors of operations for long-term care pharmacies who have
                        firsthand knowledge about Part D for dual-eligible nursing home
                        residents. We conducted these interviews between September 2006
                        and March 2007.
                        Sample
                        We selected a simple random sample of 150 nursing homes from
                        CMS’s Online Survey and Certification Reporting database. We
                        limited our sample to all nursing homes that had at least
                        10 Medicaid-certified or dually certified (both Medicare- and
                        Medicaid-certified) beds. We excluded 6 of the 150 sampled
                        nursing homes from our review because they informed us that
                        they did not have any dual-eligible residents in 2006. Our sample
                        included the remaining 144 nursing homes.




                            28 Ibid.
                            29 MedPAC, “Medicare Part D, Nursing Homes, and Long-Term Care
                            Pharmacies,” June 2007. Available online at
                            http://www.medpac.gov/documents/Jun07_Part_D_Contractor.pdf. Accessed on
                            October 5, 2007.




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   6
 I N T R O D        U C T                  I O N

                        Nursing Home Administrators
                        We conducted structured telephone interviews with each of the
                        administrators at the nursing homes in our sample. We also
                        requested that the director of nursing participate in the interview,
                        if possible.

                        We asked each administrator about his or her experiences with
                        Medicare Part D for dual-eligible residents. We focused our
                        questions on whether dual-eligible residents are receiving all
                        necessary Part D drugs, i.e., drugs that are eligible for coverage
                        under Part D.30 We also asked what happens when a resident
                        needs a drug that is not on his or her plan’s formulary or needs a
                        drug that is on the formulary but has utilization management
                        requirements, such as prior authorization. Further, we asked
                        what, if any, concerns they had about Part D for dual-eligible
                        residents.

                        We interviewed a total of 128 administrators from the 144 sample
                        nursing homes, resulting in an 89-percent response rate.
                        According to the administrators, approximately 7,800 dual-eligible
                        residents lived at these nursing homes at the time of our review.
                        Appendix A provides confidence intervals for selected estimates.
                        Nursing Home Medical Directors
                        We conducted structured telephone interviews with each of the
                        medical directors for the nursing homes in our sample. The
                        medical director is responsible for the implementation of
                        resident care policies and the coordination of medical care at the
                        facility.31 The director may also serve as the attending
                        physician for residents in the nursing home.

                        We asked each medical director questions similar to those that
                        we asked the administrators. We interviewed a total of
                        95 medical directors from the 144 sampled nursing homes,
                        resulting in a 66-percent response rate.
                        Directors of Operations for Long-Term Care Pharmacies
                        We conducted structured telephone interviews with each of the
                        directors of operations of the long-term care pharmacies for the


                            30 We gave all respondents explicit instructions related to excluded drugs and
                            reminded them throughout the interview not to consider excluded drugs when
                            answering the questions.
                            31 42 CFR § 483.75(i)(2)(i)-(ii).




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   7
I   N   T   R   O     D   U    C       T      I       O      N


                                    nursing homes in our sample. The nursing homes contracted with
                                    a total of 139 long-term care pharmacies. We excluded 55 of these
                                    pharmacies from our study because they were under investigation
                                    by the Office of Inspector General (OIG) at the time of our review.
                                    We conducted interviews with a total of 79 directors of operations
                                    from the remaining 84 long-term care pharmacies.

                                    We asked each director of operations questions similar to those
                                    that we asked the other respondents. In addition, we asked them
                                    about the nature and extent of any rebates that they receive from
                                    drug manufacturers. We included these questions because of
                                    concerns that CMS officials raised. For the purposes of our report,
                                    we refer to these respondents as pharmacy directors.
                                    Limitations
                                    The information from our interviews with the administrators,
                                    medical directors, and pharmacy directors is self-reported; we did
                                    not independently verify their responses. Estimates derived from
                                    administrators’ responses are projected to the population of
                                    administrators of nursing homes with dual-eligible residents.
                                    However, estimates derived from medical directors’ and pharmacy
                                    directors’ responses are limited to the sample respondents. We did
                                    not project these estimates to the population due to the low
                                    response rate and low useable sample size, respectively.

                                    Further, we did not collect information about individual residents,
                                    such as their length of stay at a nursing home. In addition, we did
                                    not interview consultant pharmacists.
                                    Standards
                                    Our review was conducted in accordance with the “Quality
                                    Standards for Inspections” issued by the President’s Council on
                                    Integrity and Efficiency and the Executive Council on Integrity
                                    and Efficiency.




    OEI-02-06-00190           AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   8
     F    I N D I N G                    S
  Δ            F I N D I N G S

                                                                            Ninety-three percent of nursing
                          Most respondents reported that                    home administrators reported
                 dual-eligible nursing home residents are                   that dual-eligible residents in
                     receiving all necessary Part D drugs                   their nursing homes are receiving
                                                                            all necessary Part D drugs.32
                                     (See Table 1.) Administrators explained that physicians typically order
                                     drugs that are on the formularies of the residents’ plans. When a drug
                                     is not on the formulary or requires prior authorization, generally the
Table 1: Nursing home administrators’ responses about residents’               physician changes the
receipt of Part D drugs                                                        prescription to a drug that is on
                                                                               the plan’s formulary or
                                                             Administrators
                                                                               complies with the utilization
Dual-eligible residents are receiving all Part D drugs            93%          management requirements.
Dual-eligible residents are not receiving all Part D drugs         4%          See Appendix B for a
                                                                               description of how
Don’t know                                                         3%          dual-eligible nursing home
Source: OIG analysis of interview data, 2007.                                  residents commonly obtain
                                                                               Part D drugs.

                               About 4 percent of administrators reported that at least one
                               dual-eligible resident in each of their nursing homes is not receiving
                               needed Part D drugs from their Part D plans or any other sources.
                               Administrators estimated that a total of 23 residents, or an average of
                               4 residents in each of these nursing homes, had not received all
                               necessary Part D drugs since the implementation of Part D. They
                                                                             explained that some of
Table 2: Medical directors’ and pharmacy directors’ responses about
                                                                             these residents changed
residents’ receipt of Part D drugs
                                                                             their Part D plans or were
                                                       Medical    Pharmacy   transferred to hospitals to
                                                       Directors  Directors  receive the drugs they
Dual-eligible residents are receiving all Part D drugs    73%        84%     needed; others went
                                                                             without the drugs entirely.
Dual-eligible residents are not receiving all Part D
drugs                                                                                        5%                  4%        As shown in Table 2, the
                                                                                                                           majority of medical
Don’t know                                                                                  21%                 13%        directors and pharmacy
*Note: The responses of the medical directors and pharmacy directors are not projectable to the
population. Additionally, totals may not equal 100% because of rounding.
                                                                                                                           directors whom we
Source: OIG analysis of interview data, 2007.
                                                                                                                           interviewed also reported


                                           32 For the purposes of this study, Part D drugs include all drugs that are eligible for
                                           coverage under Part D.



   OEI-02-06-00190               AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   9
 F   I N D I N G          S


                        that dual-eligible nursing home residents are receiving all necessary
                        Part D drugs. Specifically, 73 percent (69 of 95) of medical directors and
                        84 percent (66 of 79) of pharmacy directors reported that dual-eligible
                        residents in the sampled nursing homes are receiving all necessary
                        Part D drugs. However, 5 percent (5 of 95) of medical directors and
                        4 percent (3 of 79) of pharmacy directors reported that at least one
                        resident went without necessary Part D drugs.
                                                                   Nursing home administrators
                                Nursing homes and
                                                                   and pharmacy directors
      long-term care pharmacies sometimes pay for                  reported that they sometimes
         Part D drugs that are not covered by plans                pay for Part D drugs that are
                                                                   not covered by plans. In total,
                        45 percent of administrators reported that their nursing homes paid for
                        at least one Part D drug for dual-eligible residents. As several
                        administrators explained, nursing homes may pay for these Part D
                        drugs to comply with Federal regulations and Conditions of
                        Participation that require nursing homes to ensure that residents
                        receive needed drugs in a timely manner.33 Additionally, 77 percent
                        (61 of 79) of the pharmacy directors whom we interviewed reported that
                        their pharmacies paid for at least one Part D drug for dual-eligible
                        residents in the sampled nursing homes.

                        According to interviews with administrators and pharmacy directors,
                        the drugs that they most commonly pay for either are not on the
                        residents’ plans’ formularies or require prior authorization. For
                        example, they may pay for a drug if the resident’s physician determines
                        that there is no alternative drug on the formulary appropriate for the
                        resident.34 They may also pay for a short-term supply of drugs during
                        the prior authorization process. Several pharmacy directors explained
                        that not all plans cover the cost of a short-term supply of drugs during
                        the prior authorization process and, as a result, the nursing home or
                        pharmacy may pay for these drugs during this time.

                        Several respondents noted that paying for Part D drugs is causing a
                        financial strain on their nursing homes. For example, one


                            33 42 CFR § 483.60; 42 CFR Part 483; see also CMS, “State Operations Manual, Appendix

                            PP–Guidance to Surveyors for Long-Term Care Facilities,” p. 442. 

                            34 Medicare beneficiaries can request exceptions when their physicians prescribe drugs 

                            that are not on their plans’ formularies. However, only a few administrators specifically 

                            noted that residents had requested exceptions. 




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   10
F   I N D I N G       S            





                        administrator stated that her nursing home budgets $10,000 per month
                        for nonreimbursed drug costs. According to one medical director, the
                        cost of these drugs may affect nursing home admissions practices
                        because the nursing home may not admit patients if it cannot afford
                        their medication.

            Respondents express concerns that                 Nursing home administrators as
    formularies, the prior authorization process,             well as the medical directors and
                                                              pharmacy directors whom we
        and copayments may pose problems for
                                                              interviewed expressed several
           dual-eligible nursing home residents
                                                              concerns about Part D that are
                                                              specific to dual-eligible nursing
                        home residents. In general, they have concerns about plan formularies,
                        prior authorization, and residents being incorrectly identified as
                        required to pay copayments.
                        Respondents are concerned that formularies can be problematic for
                        dual-eligible residents in nursing homes
                        About one-fifth of nursing home administrators are concerned that plan
                        formularies may not meet all of the needs of some dual-eligible nursing
                        home residents. A similar proportion of medical directors and
                        pharmacy directors whom we interviewed also reported concerns about
                        plan formularies. Several medical directors specifically noted that the
                        therapeutically equivalent drugs on the formulary are not always
                        appropriate for residents because they may cause adverse side effects or
                        may not be in the proper form. As one pharmacy director noted, the
                        therapeutically equivalent drugs on one plan’s formulary cannot be
                        administered via a feeding tube.

                        Administrators and pharmacy directors further noted that plans do not
                        always cover injectable anemia drugs, oral cancer drugs, and drugs
                        administered by nebulizers. In general, these drugs can be covered by
                        either Part D or Part B depending on the circumstances. For example,
                        Part D covers drugs administered by nebulizers for beneficiaries in
                        nursing homes, whereas Medicare Part B covers these drugs for
                        beneficiaries who are at home.35 One pharmacy director noted that

                            35 Medicare Part D only covers drugs that are not covered by Medicare Part B.
                            See 42 U.S.C. § 1395w-102(e)(2)(B); see also CMS, “Prescription Drug Benefit Manual:
                            Chapter 6—Part D Drugs and Formulary Requirements,” Appendix C-1 and C-2.
                            Available online at
                            http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDBMChap6Formulary
                            Reqrmts_03.09.07.pdf. Accessed on November 7, 2007.



OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   11
 F   I N D I N G 
S


                        some plans will not cover injectable drugs because the plans are not
                        aware that the drugs are eligible for coverage under Part D for nursing
                        home residents. One administrator explained that some plans are
                        confused about whether these drugs should be covered under Part B or
                        Part D.

                        A number of medical directors were also concerned about how formulary
                        restrictions may affect residents’ quality of care. As one medical
                        director explained, although a resident may receive a drug, it may not
                        always be the most effective drug. Others expressed concerns that
                        switching drugs may increase medical errors or cause more negative
                        health effects in the future, such as heart attacks and strokes.
                        Respondents are concerned that the prior authorization process can be
                        particularly burdensome in the nursing home setting
                        About one-fifth of nursing home administrators expressed concerns that
                        the prior authorization process can be burdensome. A similar
                        proportion of the medical directors and pharmacy directors whom we
                        interviewed also reported such concerns. Respondents commonly
                        pointed out the amount of time they spend handling prior
                        authorizations. Several explained that prior authorization forms and
                        procedures vary across plans, which is particularly difficult because
                        nursing homes have residents enrolled in many different plans.
                        According to administrators, a typical nursing home works with an
                        average of 10 different plans.

                        Several pharmacy directors further noted that the prior authorization
                        process may be lengthy because of problems with plans. They reported
                        experiencing long wait times before being able to speak with plan staff.
                        They also noted that plan staff sometimes lack sufficient knowledge of
                        formulary and coverage issues specific to nursing home residents.

                        A number of medical directors also stated that the burdensome nature
                        of the process can affect patient care. For example, as one noted, the
                        time nursing home staff and physicians spend on the prior
                        authorization process reduces the time they can spend providing patient
                        care. Additionally, as another medical director stated, to avoid dealing
                        with the prior authorization process, some physicians may just switch to
                        any drug in the category. Another medical director pointed out that the
                        process can be too lengthy and patients may suffer because of delays in
                        receiving drugs.




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   12
    F   I N D I N G             S



                        Dual-eligible nursing home residents are being incorrectly identified as
                        required to pay copayments
                        Dual-eligible beneficiaries residing in nursing homes are eligible to have
                        their premiums, deductibles, and copayments fully subsidized for
                        prescription drugs covered under Part D.36 CMS issued a memorandum
                        in May 2006 clarifying that dual-eligible residents should not be
                        charged copayments if they reside in nursing homes for at least 30 days
                        and are under a covered Medicaid stay.37 The memorandum also
                        outlined steps to address the issue, including instructing plans to use
                        “best available data” when they have knowledge that a beneficiary’s
                        cost-sharing level is not correct.38 It further directed plans to repay
                        long-term care pharmacies for these copayments rather than
                        beneficiaries because it is unlikely that the long-term care pharmacies
                        have billed the beneficiaries for their copayments.39
                        Despite the issuance of this memorandum, dual-eligible residents
                        continue to be incorrectly identified as required to pay copayments. In
                        fact, 80 percent (63 of 79) of the pharmacy directors whom we
                        interviewed reported that dual-eligible nursing home residents were
                        incorrectly identified by their plan as required to pay copayments in the
                        last 3 months of 2006. Additionally, several pharmacy directors
                        reported having large amounts of uncollected copayments. For example,
                        one pharmacy director had approximately $300,000 in uncollected
                        copayments. Another pharmacy director reported having over $75,000
                        in uncollected copayments in the past year.

                        Pharmacy directors explained that for a plan to assess zero copayments
                        for these beneficiaries, it must recognize that these individuals are dual
                        eligible and that they reside in nursing homes. About half of the
                        pharmacy directors who offered an explanation reported that residents
                        are not being properly identified as dual eligible. The other half of
                        pharmacy directors reported that residents are not being properly
                        identified as residing in nursing homes.

                            36 42 CFR § 423.782. According to CMS, “[a]n individual is considered institutionalized 

                            and qualifies for a zero co-payment when he or she is a full benefit dual-eligible, a 

                            resident of a long-term care facility for a full calendar month, and under a covered 

                            Medicaid stay.”

                            37 CMS, “Incorrect Cost Sharing Charges to Dual-Eligible Beneficiaries” (May 5, 2006). 

                            38 For example, if a plan has knowledge from the nursing home that the beneficiary’s 

                            nursing home stay is covered by Medicaid, the plan should revise the copayment level. 

                            See ibid. 

                            39 CMS, “Incorrect Cost Sharing Charges to Dual-Eligible Beneficiaries” (May 5, 2006). 





OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   13
 F   I N D I N G          S               




          Concerns also exist that long-term care              According to our interviews,
                                                               long-term care pharmacies have
         pharmacies generally do not disclose to
                                                               continued to receive rebates from
         physicians the rebates they receive from
                                                               drug manufacturers under Part D
                             drug manufacturers                and they generally do not disclose
                                                               these rebates to physicians. In total,
                        54 percent (43 of 79) of the pharmacy directors whom we interviewed
                        reported that their pharmacy receives rebates from drug manufacturers
                        either directly or through group purchasing organizations.40 These
                        directors explained that rebates are often based on market share or
                        volume. For example, one pharmacist, who receives rebates based on
                        market share, explained that his rebates are based on the percentage he
                        dispenses of a particular drug, compared to the percentage he dispenses of
                        the competitor’s drug. Another pharmacy director explained that if
                        90 percent or more of the insulin she sells is from a certain manufacturer,
                        she receives a 1-percent rebate.

                        Physicians may not be aware that pharmacies receive these rebates. Only
                        three of the pharmacy directors we interviewed reported that their
                        pharmacies provided information to nursing homes or to physicians about
                        the rebates that they receive.41
                        Rebates are a concern because pharmacists employed by these long-term
                        care pharmacies can influence the drugs that are prescribed to residents
                        when drugs are initially ordered. According to the nursing home
                        administrators, when a physician orders a drug that is not on the
                        formulary, the pharmacist commonly suggests one or two alternative
                        drugs from a longer list of drugs on the formulary. The physicians
                        typically follow the suggestions of the pharmacists. Specifically, the
                        medical directors whom we interviewed reported that they make the
                        pharmacists’ recommended changes about 78 percent of the time.

                        In addition, pharmacists can influence the drugs that are prescribed
                        during the drug regimen reviews. As described earlier, nursing homes are


                            40 A group purchasing organization is an entity that uses collective buying power to
                            obtain discounts from vendors.
                            41 Long-term care pharmacies are required to report the rebates that they receive to
                            plans; however, they are not required to provide this information to nursing homes or
                            physicians. See Medicare Part D Reporting Requirements Contract Year 2008.
                            Available online at
                            http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PartDReportingRequire
                            ments_NextYear.pdf. Accessed on August 10, 2007.



OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   14
 F   I N D I N G          S


                        required to have a consultant pharmacist review the drug regimens of all
                        residents at least monthly. About 80 percent of the nursing home
                        administrators reported that the consultant pharmacists who perform
                        their drug regimen reviews are employees of the long-term care pharmacy
                        that provide Part D drugs to their residents. During these reviews,
                        consultant pharmacists can make recommendations to change residents’
                        drugs. The medical directors whom we interviewed reported that when
                        consultant pharmacists recommend changing one drug for a different,
                        therapeutically equivalent drug, they make these changes about
                        74 percent of the time.

                        Taken together, these issues raise concerns that rebates may create
                        incentives for pharmacists and consultant pharmacists to recommend
                        certain drugs over others based on financial considerations as opposed to
                        clinical considerations and that physicians may not be aware of these
                        incentives when deciding whether to take pharmacists’ recommendations.




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   15
Δ        R E C O M M E N D A T I O N S




                        According to most respondents, dual-eligible nursing home residents are
                        receiving all necessary Part D drugs. This is due, in part, to nursing
                        homes and long-term care pharmacies paying for some drugs that plans
                        do not cover. In addition, respondents raised several concerns about
                        Part D that are specific to dual-eligible nursing home residents
                        including concerns about plan formularies, the prior authorization
                        process, and copayments. We are also concerned that long-term care
                        pharmacies receive rebates from drug manufacturers which create
                        financial incentives to recommend certain drugs and that they do not
                        generally disclose these incentives to physicians. Based on these
                        findings, we plan to do additional work on long-term care pharmacy
                        rebates. In addition, we recommend that CMS take the following
                        actions:
                        Work With Plans To Ensure That Formularies Meet the Needs of
                        Dual-Eligible Nursing Home Residents
                        CMS should work with plans to ensure that the drug needs of
                        dual-eligible nursing home residents are taken into consideration. CMS
                        reviews each plan’s formulary to ensure that it provides access to
                        appropriate treatments for all diseases and is not designed to
                        discourage enrollment by any particular group. During this review
                        process, CMS should put additional emphasis on ensuring that plans
                        include the drugs and alternative dosages and forms that meet the
                        needs of dual-eligible nursing home residents. In addition, we recognize
                        that CMS has issued guidance explaining when drugs should be covered
                        by Part B or Part D. CMS should work with plans to ensure that
                        dual-eligible residents do not have difficulty obtaining drugs under
                        Part D that may be covered by Part B in other circumstances or patient
                        settings.
                        Continue To Work With Plans To Improve the Prior Authorization Process
                        We recognize that CMS issued new transition guidance for 2007
                        requiring plans to provide up to a 90-day supply of nonformulary drugs
                        and drugs requiring prior authorization or step therapy prescribed for
                        newly enrolled nursing home residents and up to a 31-day supply of
                        such drugs for current enrollees while an exception is being processed.
                        CMS should clarify existing guidance to ensure that plans pay for a
                        supply of drugs for current enrollees during routine prior authorization


OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   16
 R   E C O        M M E N D A T                               I O N             S


                          requests. Further, CMS should specify under what circumstances a
                          supply of drugs would qualify as being an emergency supply. In
                          addition, CMS should work with plans to ensure that plan staff are
                          responsive and knowledgeable about Part D formulary and coverage
                          issues that are specific to dual-eligible nursing home residents.
                          Further, CMS should consider working with partners, such as the
                          American Medical Association, to educate physicians about using the
                          standardized form and about the transition policy.
                          Ensure That Copayments for Dual-Eligible Nursing Homes Residents Are
                          Fully Subsidized, as Appropriate
                          CMS should continue its efforts to ensure that residents are properly
                          identified as dually eligible and as residing in a nursing home. CMS
                          should also work with plans to ensure they are using “best available
                          data” when they have knowledge that a beneficiary is being
                          inappropriately charged copayments. CMS should also consider
                          educating long-term care pharmacies and nursing homes about what
                          “best available data” they can provide to plans.
                          Consider Methods To Encourage Long-Term Care Pharmacies To Disclose
                          to Physicians Information About Rebates That They Receive From Drug
                          Manufacturers
                          We recognize that CMS does not have the authority under Part D to
                          require long-term care pharmacies to disclose to physicians the rebates
                          that they receive from drug manufacturers. However, CMS can
                          consider methods to encourage long-term care pharmacies to disclose to
                          physicians information about their rebates. Because long-term care
                          pharmacists can influence the drugs that are prescribed to residents in
                          nursing homes, it is important that physicians be aware of any potential
                          financial incentives that pharmacists may have to recommend one drug
                          over another.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          In its comments on the draft report, CMS agreed that our review
                          identifies potential issues with ensuring that dual-eligible nursing home
                          residents are receiving all necessary Part D drugs and that further work
                          is needed in the areas highlighted by the report. In addition, CMS
                          concurred with our first two recommendations and the intent of the
                          third recommendation; it did not concur with the last recommendation.



OEI-02-06-00190     AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   17
 R   E C O        M M E N D A T                               I O N             S


                          CMS concurred with our first recommendation that it work with plans
                          to ensure that formularies meet the needs of dual-eligible nursing home
                          residents. CMS stated that it believes it substantially does this but will
                          look for opportunities to improve. It will continue to work with its
                          partners and monitor complaints regarding formularies and will adjust
                          the formulary review process as necessary. It will also consider our
                          recommendations as it constructs the formulary review checks for
                          calendar year 2009 formularies.

                          CMS concurred with our second recommendation to continue to work
                          with plans to improve the prior authorization process. CMS noted that
                          it issued a memorandum to Part D sponsors directing them to make
                          plan prior authorization criteria available upon request of the
                          beneficiary or physicians. CMS also stated that it would update its
                          guidance in the next revision of Chapter 6 of the “Part D Manual” and
                          ensure that long-term care beneficiaries have access to an emergency
                          supply of drugs anytime during the plan year. Further, as CMS
                          continues to work with long-term care partners and providers, it will
                          emphasize protections available to long-term care beneficiaries,
                          including the model coverage determination form, Part D plans’
                          transition processes, and emergency supplies.

                          Although CMS concurred with the intent of our third recommendation
                          to ensure that copayments for dual-eligible nursing home residents are
                          fully subsidized, as appropriate, it expressed concern over the use of the
                          term “waive” in the report. CMS requested that OIG not use “waive” in
                          the context of Part D payments because, among other reasons, it may
                          confuse the public because CMS describes payment and nonpayment of
                          cost-sharing liability under Part D in a specific manner and also
                          because waiving copayments would be a violation of Federal law. In
                          response to CMS’s concerns over the potential for confusion, we
                          modified the language of the report. We note, however, that Federal
                          laws are not automatically violated if copayments are waived; rather,
                          Federal laws may be implicated when providers, practitioners, and
                          suppliers waive copayments for services or products and could
                          ultimately result in criminal, civil, or administrative liability.

                          In addition, in response to our third recommendation, CMS explained
                          that currently it reports beneficiary copayment levels to Part D sponsors
                          on a weekly basis, while States submit information to CMS on
                          beneficiary dual eligibility and institutional status on a monthly basis.
                          CMS stated that it is working to increase the frequency of State


OEI-02-06-00190     AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   18
  R   E C O       M M E N D A T                                I O N             S


                          reporting and its processing of these data. In addition, CMS stated that
                          it has already taken a number of steps relative to its best available
                          evidence policy. It posted a document to the CMS Pharmacy Listserv on
                          the topic and established a separate complaint-tracking category for
                          “best available evidence” issues. It also plans to release two tip sheets.

                          CMS did not concur with our fourth recommendation to consider
                          methods to encourage long-term care pharmacies to disclose to
                          physicians information about rebates that they receive from drug
                          manufacturers. CMS stated that it does not have authority under
                          Part D to require long-term care pharmacies to disclose their rebates to
                          physicians. CMS noted that to ensure that the rebates received by
                          long-term care pharmacies do not create incentives that are contrary to
                          a Part D plan’s formulary, it currently requires Part D sponsors to
                          collect and review information regarding rebates received by their
                          network long-term care pharmacies. We recognize that CMS does not
                          have the authority to require pharmacies to disclose their rebates to
                          physicians. However, we continue to recommend that CMS consider
                          additional ways to encourage pharmacies to disclose this information to
                          physicians so that they are aware of any potential financial incentives
                          that pharmacists may have to recommend one drug over another.

                          CMS also commented on the findings. In response to our first finding,
                          CMS requested that we recalculate the data to exclude respondents who
                          reported that they did not know whether residents received needed
                          drugs. We included these responses in our analysis to ensure we
                          present the data in a complete and unbiased manner. In response to
                          our second finding, CMS agreed to issue clarified guidance. CMS noted
                          that although the intent of the existing guidance was to cover
                          nonformulary drugs during transition periods, it could issue clarified
                          guidance.

                          CMS made several comments related to our methodology. Specifically,
                          CMS stated that it believes it is a serious omission that we did not
                          interview consultant pharmacists because they operate independently of
                          long-term care pharmacy directors in influencing drugs. As we noted in
                          the report, about 80 percent of the nursing home administrators
                          reported that the consultant pharmacists who perform their drug
                          regimen reviews are employees of the long-term care pharmacy that
                          provides Part D drugs to their residents.

                          We made several technical changes based on CMS’s comments. The full
                          text of CMS’s comments is included in Appendix C.

OEI-02-06-00190     AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   19
      Δ          A P P E N D I X ~ A




    Confidence Intervals for Selected Estimates for Nursing Home Administrators
    (Sample Size = 128)


                                                                                                                                            95-Percent
Estimate Description                                                                                     Point Estimate             Confidence Interval

Percentage of nursing home administrators who reported that
dual-eligible residents in their nursing home are receiving all                                                       92.9%                  88.5%–97.3%
necessary Part D drugs

Percentage of nursing home administrators who reported that
                                                                                                                       3.9%                   0.5%–7.3%
dual-eligible residents are not receiving all necessary Part D drugs

Percentage of nursing home administrators who reported that they
“do not know” whether dual-eligible residents are receiving all                                                        3.1%                   0.1%–6.1%
necessary Part D drugs

Percentage of nursing home administrators who reported that their
nursing homes paid for at least one Part D drug for dual-eligible                                                     44.5%                  35.9%–53.1%
residents

Percentage of nursing home administrators who are concerned
about plan formularies may not meet all of the needs of some                                                          20.0%                  13.1%–26.9%
dual-eligible nursing home residents

Percentage of nursing home administrators who expressed
                                                                                                                      18.0%                  11.3%–24.7%
concerns that the prior authorization process can be burdensome




       OEI-02-06-00190         AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS    20
Δ        A P P E N D I X ~ B




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   21

Δ        A P P E N D I X                                   ~           C

     Agency Comments




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   22

 A   P   P E N D      I X                  ~           C           





OEI-02-06-00190    AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   23

 A   P   P E N D      I X                  ~           C           





OEI-02-06-00190    AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   24

 A   P   P E N D      I X                  ~           C           





OEI-02-06-00190    AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   25

 A   P   P E N D      I X                  ~           C           





OEI-02-06-00190    AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   26

 A   P   P E N D      I X                  ~           C           





OEI-02-06-00190    AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   27

 A   P P E N D       I X ~ ~CC                        A
                                                      C
Δ        A C K N O W L E D G M E N T S



                        This report was prepared under the direction of Jodi Nudelman,
                        Regional Inspector General for Evaluation and Inspections in the New
                        York regional office, and Meridith Seife, Deputy Regional Inspector
                        General.

                        Miriam Anderson served as the team leader for this study. Other
                        principal Office of Evaluation and Inspections staff from the New York
                        regional office who contributed to this report include Taryn Eckstein
                        and David Rudich. Other regional and central office staff who
                        contributed include Kevin Farber, Vincent Greiber, Jennifer Jones,
                        Sandy Khoury, Christine Moundas, and Michelle McInnis.




OEI-02-06-00190   AVA I L A B I L I T Y   OF   M E D I C A R E PA R T D D R U G S   TO   DUAL-ELIGIBLE NURSING HOME RESIDENTS   28
